No. 20-676
_________________________________________________
IN THE

Supreme Court of the United States
________________
J.P. BY AND THROUGH HIS GUARDIAN AD LITEM,
SHANNON VILLANEUVA,
Petitioner,
v.
COUNTY OF ALAMEDA, DIANE DAVIS MASS, AND SUE MAY,
Respondents.
________________
On Petition for a Writ of Certiorari
To The United States Court of Appeals
For the Ninth Circuit
________________
APPENDIX TO BRIEF IN OPPOSITION TO CERTIORARI
________________

JODY STRUCK
HAAPALA, THOMPSON & ABERN, LLP
939 Harrison Street, Suite 800
Oakland, CA 94612-3527
(510) 773-2324
jstruck@htalaw.com

INDEX TO APPENDIX
Appendix M: Respondents’ Notice of Appeal to the United States Court of
Appeals for the Ninth Circuit, Docket No. 18-15963.

Case 4:17-cv-05679-YGR Document 57 Filed 05/24/18 Page 1 of 16

1
2
3
4
5
6

Rebecca S. Widen, SBN 219207
HAAPALA, THOMPSON & ABERN, LLP
1939 Harrison Street, Suite 800
Oakland, California 94612
Tel: 510-763-2324
Fax: 510-273-8534
E-mail: rwiden@htalaw.com
Attorneys For Defendants
COUNTY OF ALAMEDA and
DIANE DAVIS MAAS and SUE MAY

7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA – OAKLAND

10

Attorneys At Law
Park Plaza Building
1939 Harrison St., Suite 800
Oakland, California 94612
Telephone: 510-763-2324
Facsimile: 510-273-8534

Haapala, Thompson & Abern LLP

11
12
13

J.P., by and through his Guardian ad Litem,
SHANNON VILLANUEVA,

NOTICE OF APPEAL

Plaintiff,
vs.

15

COUNTY OF ALAMEDA, DIANE DAVIS
MAAS, SUE MAY, TRIAD FAMILY
SERVICES, MARIA REFUGIO MOORE,
and DOES 1-30, inclusive,

16

Defendants.

14

/

17
18

Case No.: 4:17-cv-05679-YGR (LB)

Defendants COUNTY OF ALAMEDA, DIANE DAVIS MAAS and SUE MAY appeal

19

to the United State Court of Appeal for the Ninth Circuit from those portions of the District

20

Court’s April 24, 2018 order denying their motion to dismiss on Plaintiff’s claims under

21

42 U.S.C. section 1983 on the basis of qualified immunity, and all issues inextricably

22

intertwined therewith, including but not limited to whether any constitutional violation is stated

23

in Plaintiff’s Complaint. A copy of the order appealed from is attached hereto (Docket #52 –

24

Order Granting In Part and Denying In Part County Defendants’ Motion to Dismiss).

25

Dated: May 24, 2018

26
27
28

HAAPALA, THOMPSON & ABERN, LLP
By:

/s/ Rebecca S. Widen
Rebecca S. Widen
Attorneys for Defendants
COUNTY OF ALAMEDA, DIANE DAVIS
MAAS and SUE MAY
1

J. P. v. County of Alameda, et al. / Case #4:17-cv-05679-YGR (LB)
Notice Of Appeal

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 2
1 of 16
15

1
2
3

UNITED STATES DISTRICT COURT

4

NORTHERN DISTRICT OF CALIFORNIA

5
6
7

J.P., BY AND THROUGH HIS GUARDIAN AD
LITEM, SHANNON VILLANUEVA,
Plaintiff,

8

vs.

9
10

COUNTY OF ALAMEDA, ET AL.,

ORDER GRANTING IN PART AND DENYING
IN PART COUNTY DEFENDANTS’ MOTION
TO DISMISS
Re: Dkt. No. 21

Defendants.

11
United States District Court
Northern District of California

CASE NO. 17-cv-05679-YGR

12

Plaintiff J.P., by and through his guardian ad litem, brings this civil rights action against

13

defendants County of Alameda (the “County”), Diane Davis Maas in her individual and official

14

capacities, Sue May in her official capacity, Triad Family Services (“Triad”), and Maria Refugio

15

Moore. Relevant here, plaintiff asserts the following claims against the County, Maas, and May

16

(the “County Defendants”) pursuant to 42 U.S.C. section 1983 for: (1) violation of the Fourteenth

17

Amendment – state-created danger (against Maas and May); violation of the First and Fourteenth

18

Amendments based on (2) intimate association (against Maas and May), (3) expressive association

19

(against Maas and May), (4) municipal liability – policy of failure to train (against the County),

20

(5) municipal liability – customs, practices, de facto policy (against the County), (6) municipal

21

liability – ratification (against the County); and (7) declaratory and injunctive relief (against the

22

County). (Dkt. No. 1 at 14–20 (“Complaint”).)1

23

The County Defendants have moved to dismiss all counts alleged against them. (Dkt. No.

24
25
26
27
28

1

The Court notes that the descriptions of plaintiff’s causes of action as they appear in the
body of the complaint (See Complaint at pp. 14–20) are inconsistent with the descriptions of the
same causes of action as they appear on the caption page of the complaint (Complaint at ECF 1).
In light of these inconsistencies, the Court interprets plaintiff’s claims based on the arguments
made in plaintiff’s opposition to the County Defendants’ motion to dismiss. (See Dkt. No. 23
(“Opposition”).)

United States District Court
Northern District of California

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 3
2 of 16
15

1

21 (“Motion”).) Having carefully considered the pleadings in this action, the papers submitted,

2

and oral arguments held on February 13, 2018, the Court hereby GRANTS IN PART AND DENIES IN

3

PART the County Defendants’ motion to dismiss. In sum, plaintiff can state: (i) a claim for

4

violation of his Fourteenth Amendment rights to be free from state-created danger and to

5

minimally adequate care; (ii) a claim for violation of his First Amendment right to familial

6

association; and (iii) corresponding municipal liability claims.

7

I.

SUMMARY OF RELEVANT ALLEGATIONS

8

The complaint alleges as follows:

9

This case arises from tragic events that occurred in the fall of 2015 and resulted in the

10

untimely death of plaintiff’s two-year-old sister, M.M. Specifically, plaintiff alleges that he and

11

M.M. (together, the “foster siblings”) were involuntarily removed from their biological mother’s

12

custody on September 30, 2015 due to allegations of abuse and neglect suffered by the children.

13

(Complaint ¶ 19.) Later that day, defendant May, a County employee, placed plaintiff and M.M.

14

in the care of defendant Moore, an out-of-county foster mother approved by defendants Triad and

15

the County. (Id. ¶¶ 23, 27, 28.) Moore’s live-in boyfriend at the time was granted an exemption

16

to reside with and assist in the care or supervision of the foster siblings. (Id. ¶ 27.)

17

On the evening of October 3, 2015, just days before M.M.’s third birthday, Moore took

18

M.M. to the hospital after having observed the child’s “strange” behavior earlier that day at the

19

park. (Id. ¶¶ 30, 31.) Specifically, M.M. hallucinated in the presence of J.P., her brother, began

20

shaking and sweating, and experienced an elevated heart rate. (Id. ¶ 30.) The following day, the

21

results of the urine sample taken by the hospital revealed that M.M. had methamphetamine in her

22

system. (Id.) Her final diagnosis was “Altered level of consciousness” and “Amphetamine

23

abuse.” (Id.)

24

The County, through May and social worker Maas, was subsequently made aware of

25

M.M.’s hospitalization for ingesting methamphetamine. (Id. ¶¶ 35, 39.) However, Maas and May

26

failed to assess an emergency report that M.M. had ingested methamphetamine, or investigate it,

27

or take any immediate steps to prevent further harm, despite being authorized and mandated to do

28

so. (Id. ¶¶ 44, 46, 49, 51, 52, 54, 55, 60–63.) Consequently, on October 16, 2015, M.M. was
2

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 4
3 of 16
15

1

again exposed to methamphetamine in the same foster home. (Id. ¶ 64.) Once again, in plaintiff’s

2

presence, M.M. exhibited unusual behavior and symptoms, including being petrified by imaginary

3

spiders, cramping and contortion of her hands, shaking fingers, speaking incoherently with her

4

eyes closed, and stomach spasms. (Id. ¶ 65.) Hours later, M.M. died in her brother’s arms.

5

(Id. ¶ 67.)

6

II.

7

A.

8

Pursuant to Federal Rule of Civil Procedure 12(b)(6), a complaint may be dismissed for

9

United States District Court
Northern District of California

LEGAL FRAMEWORK
Rule 12(b)(6) Motion to Dismiss

failure to state a claim upon which relief may be granted. Dismissal under Rule 12(b)(6) is proper

10

if there is a “lack of a cognizable legal theory or the absence of sufficient facts alleged under a

11

cognizable legal theory.” Conservation Force v. Salazar, 646 F.3d 1240, 1242 (9th Cir. 2011)

12

(citing Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1988)). All allegations of

13

material fact are taken as true and construed in the light most favorable to the plaintiff. Johnson v.

14

Lucent Techs., Inc., 653 F.3d 1000, 1010 (9th Cir. 2011).

15

To survive a motion to dismiss, a complaint must plead “enough facts to state a claim [for]

16

relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007). A claim

17

is plausible on its face “when the plaintiff pleads factual content that allows the court to draw the

18

reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal,

19

556 U.S. 662, 678 (2009). If the facts alleged do not support a reasonable inference of liability,

20

stronger than a mere possibility, the claim must be dismissed. Id. at 678–79. Mere “conclusory

21

allegations of law and unwarranted inferences are insufficient to defeat a motion to dismiss.”

22

Adams v. Johnson, 355 F.3d 1179, 1182 (9th Cir. 2004).

23

B.

24

Here, the complaint asserts claims under 42 U.S.C. section 1983 (herein “Section 1983”),

42 U.S.C. Section 1983

25

which provides for a cause of action against a person who, acting under color of state law,

26

deprives another of rights guaranteed under the United States Constitution or the laws of the

27

United States. “To prove a case under section 1983, the plaintiff must demonstrate that (1) the

28

action occurred ‘under color of state law’ and (2) the action resulted in the deprivation of a
3

United States District Court
Northern District of California

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 5
4 of 16
15

1

constitutional right or federal statutory right.” Jones v. Williams, 297 F.3d 930, 934

2

(9th Cir. 2002). “The first inquiry in any § 1983 suit, therefore, is whether the plaintiff has been

3

deprived of a right ‘secured by the Constitution and laws.’” Baker v. McCollan, 443 U.S. 137,

4

140 (1979) (quoting 42 U.S.C. § 1983).2

5

C.

6

“Qualified immunity affords limited protection to public officials faced with liability under

Qualified Immunity

7

42 U.S.C. § 1983, insofar as their conduct does not violate clearly established statutory or

8

constitutional rights of which a reasonable person would have known.” Shafer v. Cty. of Santa

9

Barbara, 868 F.3d 1110, 1115 (9th Cir. 2017) (internal quotation marks omitted). “To determine

10

whether qualified immunity applies in a given case, [courts] must determine: (1) whether a public

11

official has violated a plaintiff’s constitutionally protected right; and (2) whether the particular

12

right that the official has violated was clearly established at the time of the violation.” Id. “For a

13

right to be clearly established, case law must ordinarily have been earlier developed in such a

14

concrete and factually defined context to make it obvious to all reasonable government actors, in

15

the defendant’s place, that what he was doing violates federal law.” Id. at 1117. “It is the plaintiff

16

who ‘bears the burden of showing that the rights allegedly violated were ‘clearly established.’” Id.

17

at 1118 (quoting LSO, Ltd. v. Stroh, 205 F. 3d 1146, 1157 (9th Cir. 2000)).

18

III.

19

DISCUSSION
The County Defendants’ motion challenges the alleged constitutional rights asserted and

20

raises a qualified immunity defense. By way of overview, the County Defendants, relying

21

principally on Ward v. City of San Jose, 967 F.2d 280 (9th Cir. 1991), move to dismiss plaintiff’s

22

entire complaint, arguing that “[a]s a sibling, Plaintiff does not have standing to assert a claim for

23

loss of familial association under the Fourteenth Amendment.” (Motion at 4.) On this same basis,

24

they contend that individual County Defendants Maas and May are entitled to qualified immunity.

25

Plaintiff concedes that under Ward, he, as a sibling, lacks standing to assert a Fourteenth

26
27
28

2

satisfied.

The County Defendants do not dispute that the “under color of state law” requirement is
4

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 6
5 of 16
15

1

Amendment claim for loss of familial association. However, plaintiff argues that his claims

2

actually stem from a “a sibling’s rights to be free from the government’s creation of danger and

3

failure to protect foster children as proscribed by the Fourteenth Amendment, [and] invasion of a

4

family member’s right to association under the First Amendment.” (Opposition at 1.) While not

5

the model of clarity, the Court evaluates the complaint and addresses plaintiff’s asserted rights in

6

turn, and in a light most favorable to plaintiff.3

7

A.

8

United States District Court
Northern District of California

9

First Cause of Action: Violation of Plaintiff’s Fourteenth Amendment Rights
to be Free from State-Created Danger and to Minimally Adequate Care

Plaintiff appears to clarify that his first cause of action is based on both a danger-creation

10

theory of Fourteenth Amendment liability and a special-relationship theory. (Opposition at 5.)

11

With respect to the former, the County Defendants argue that “[t]he essence of Plaintiff’s claim is

12

for the loss of a sibling relationship, which is simply not cognizable under the Fourteenth

13

Amendment.” (Motion at 4.) The Court disagrees with this characterization of plaintiff’s

14

Fourteenth Amendment claim and finds that plaintiff has adequately pleaded both danger-creation

15

and special-relationship theories of Fourteenth Amendment liability.

16

As a preliminary matter, the state generally does not have an obligation to protect citizens

17

from private harm. See DeShaney v. Winnebago Dep’t of Soc. Servs., 489 U.S. 189, 195–96

18

(1989); see also Patel v. Kent Sch. Dist., 648 F.3d 965, 972 (9th Cir. 2011) (“In that vein, the

19

Fourteenth Amendment’s Due Process Clause generally does not confer any affirmative right to

20

governmental aid, even where such aid may be necessary to secure life, liberty, or property

21

interests.”). However, two exceptions to this general rule exist, both of which plaintiff claims

22

apply: (1) when the state affirmatively places a plaintiff in danger by acting with “deliberate

23

indifference” to a “known or obvious danger” (“state-created danger exception”), see L.W. v.

24
25
26
27
28

3

The Court notes that individual County Defendant May is named as a party-defendant in
her official capacity only, while individual County Defendant Maas is named as a party-defendant
in both her individual and official capacities. (See Complaint ¶¶ 8, 9.) While the parties have not
briefed the issue, and the Court takes no position on the matter in this Order, plaintiff should
consider whether it is appropriate to name Maas and May in their official capacities, while
simultaneously naming the County, before filing his amended complaint.
5

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 7
6 of 16
15

1

Grubbs, 92 F.3d 894, 900 (9th Cir. 1996); and (2) when a “special relationship” exists between the

2

plaintiff and the state (“special-relationship exception”), see DeShaney, 489 U.S. at 198–202. If

3

either exception applies, the state’s omission or failure to protect may give rise to a Section 1983

4

claim. Patel, 648 F.3d at 972.

5

United States District Court
Northern District of California

6

1.

Right to be Free from State-Created Danger

The state-created danger exception applies when there is “affirmative conduct on the part

7

of the state in placing the plaintiff in danger,” and the state acts with “deliberate indifference” to a

8

“known or obvious danger.” Id. at 974 (internal quotation marks omitted). Accordingly, courts

9

have concluded that state child protective agencies expose children in their care to a danger they

10

otherwise would not have faced when the agency makes poor placement decisions. For example,

11

in Tamas v. Department of Social & Health Services, 630 F.3d 833 (9th Cir. 2010), the Ninth

12

Circuit determined that by approving a foster child’s adoption, the state “created a danger of

13

molestation that [the child] would not have faced had the state adequately protected her as a result

14

of referrals [reporting her foster father’s physical and sexual abuse].” Id. at 843.

15

Here, the complaint alleges, inter alia that:

16

20

Defendants’ misconduct deprived [J.P.] (and his sister) of Fourteenth Amendment
rights by affirmatively placing, deciding, or recommending that [J.P] (and [his
sister]) continue to be placed in Moore’s foster-care home, without engaging in any
necessary acts to protect these foster siblings from future harm after [M.M.]
ingested methamphetamine on 10/3/15. Defendants’ misconduct resulted in [J.P]
(and [M.M.]) living with a foreseeable and significant risk of danger they otherwise
would not have faced—that [J.P.] or his sister would die of a methamphetamine
overdose.

21

(Complaint ¶ 82.) Citing this paragraph of the complaint, the County Defendants argue that

22

“[t]here are no facts indicating the Plaintiff personally suffered any abuse or neglect in the subject

23

foster home, and in fact, he did not.” (Dkt. No. 24 at 2 (“Reply”).) The County Defendants are

24

correct that the complaint is devoid of any allegations that plaintiff ingested methamphetamine or

25

suffered any physical injury. However, there can be no serious dispute that, taking the allegations

26

as true, plaintiff was exposed to a danger he would not have faced had Maas and/or May removed

27

him and his sister from their foster home, namely “expos[ure] to methamphetamine and its toxic

28

effects including the possibility of death.” (Complaint ¶ 62.) The County Defendants’ efforts to

17
18
19

6

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 8
7 of 16
15

1
2

In order for the state-created danger exception to apply, plaintiff must additionally plead

3

that “state officials . . . act[ed] with such deliberate indifference to the liberty interest that their

4

actions ‘shock the conscience.’” Tamas, 630 F.3d at 844 (quoting Brittan v. Hansen, 451 F.3d

5

982, 991 (9th Cir. 2006)). Conduct that “shocks the conscience” is “deliberate indifference to a

6

known, or so obvious as to imply knowledge of, danger.” Kennedy v. City of Ridgefield, 439 F.3d

7

1055, 1064 (9th Cir. 2006) (internal quotation marks omitted). In Tamas, the Ninth Circuit held:

8
9
10
11
United States District Court
Northern District of California

argue otherwise are not well taken.

12

[T]he deliberate indifference standard, as applied to foster children, requires a
showing of an objectively substantial risk of harm and a showing that officials were
subjectively aware of facts from which an inference could be drawn that a
substantial risk of serious harm existed and that either the official actually drew that
inference or that a reasonable official would have been compelled to draw that
inference. . . . [T]he subjective component may be inferred from the fact that he
risk of harm is obvious.

13

630 F.3d at 845 (internal quotation marks and citations omitted); see also Henry A. v. Willden, 678

14

F.3d 991, 1001 (9th Cir. 2012) (“[A] foster child’s due process rights are violated when a state

15

official exhibits deliberate indifference to a child’s serious medical needs; to suspected physical

16

abuse in a foster home; and to suspected sexual abuse in a foster home.”).

17

Viewing the complaint in a light most favorable to plaintiff, the Court finds that plaintiff

18

adequately pleads facts that, if true, would establish that individual County Defendants Maas and

19

May acted with deliberate indifference to a substantial risk of harm to plaintiff. For example,

20

plaintiff alleges that prior to M.M.’s death, M.M. was “hospitaliz[ed] for ingesting

21

methamphetamine while in the exclusive care and custody of the same foster parent [as plaintiff’s]

22

for the previous four days.” (Id. ¶ 81 (emphasis supplied).) Moreover, plaintiff alleges:

23

“Defendants were subjectively aware of these facts from which an inference could be drawn that a

24

substantial risk of harm existed. Either they drew that inference or would have been compelled to

25

draw that inference.” (Id.) According to plaintiff, despite being “on constructive notice about the

26

details of 10/3/15, and the likelihood narcotics would again be available for the foster siblings to

27

ingest” (id. ¶ 35 (emphasis supplied)), the County Defendants failed to inform the Dependency

28

Court of facts regarding M.M.’s methamphetamine exposure (id. ¶ 40). Moreover, the County
7

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 9
8 of 16
15

1

Defendants allegedly “failed to make any Emergency Referral Protocol assessment” despite

2

receiving numerous abuse or neglect referrals. (Id. ¶ 52.) In light of these allegations, the Court

3

concludes that plaintiff has adequately pleaded a danger-creation theory of Fourteenth

4

Amendment liability.

5
6

Right to Minimally Adequate Care

With respect to the special-relationship exception to the general rule that the state does not

7

have a responsibility to protect the liberty of its citizens against invasion by private actors, the

8

Constitution imposes upon the state a duty to assume some responsibility for the safety and

9

general wellbeing of a person who is taken into its custody and held there against his will:

10
11
United States District Court
Northern District of California

2.

12
13

[W]hen the State by the affirmative exercise of its power so restrains an
individual’s liberty that it renders him unable to care for himself, and at the same
time fails to provide for his basic human needs—e.g., food, clothing, shelter,
medical care, and reasonable safety—it transgresses the substantive limits on state
action set by the . . . Due Process Clause.

14

DeShaney, 489 U.S. at 200 (citing Estelle v. Gamble, 429 U.S. 97, 103–04 (1976); Youngberg v.

15

Romeo, 457 U.S. 307, 315–17 (1982)). This affirmative duty to protect arises from the state’s

16

restraint of the individual’s freedom to act on his own behalf, not from its failure to act to protect

17

his liberty interests against harms inflicted by other means. See id. This special relationship

18

terminates when the individual is no longer in the state’s custody. See id. at 200–01 (where state

19

briefly took custody of a child from his birth father to investigate alleged abuse, and the child was

20

later severely beaten by his father, Supreme Court held special-relationship exception did not

21

apply because the child was no longer in the state’s custody).

22

Here, plaintiff’s allegations establish that he was in the state’s custody during the time

23

period in which his sister ingested methamphetamine on two separate occasions, the latter of

24

which resulted in her death. Accordingly, the Court concludes that plaintiff adequately pleads a

25

special-relationship theory of Fourteenth Amendment liability.4

26
27
28

4

The County Defendants do not assert a qualified immunity defense with respect to
plaintiff’s Fourteenth Amendment claim based on his rights to be free from the government’s
creation of danger and to minimally adequately care.
8

Case
Case4:17-cv-05679-YGR
4:17-cv-05679-YGR Document
Document57
52 Filed
Filed05/24/18
04/24/18 Page
Page10
9 of
of15
16

1

B.

2

Plaintiff appears to clarify that his First Amendment claims are not based on freedom of

3

expressive association, but rather on his right to familial association.5 The Court proceeds with its

4

analysis of plaintiff’s First Amendment claim accordingly.6

5

United States District Court
Northern District of California

Second Cause of Action: Violation of Plaintiff’s First Amendment Right to
Familial Association

Recently, the Ninth Circuit addressed “the constitutional right to familial association” in

6

the context of a parent-child relationship and a hospital’s refusal to release the latter. Keates v.

7

Koile, 883 F.3d 1228, 1235 (9th Cir. 2018). Relevant here, the Ninth Circuit reiterated the well-

8

established principle that the First Amendment protects “family relationships, that presuppose

9

deep attachments and commitments to the necessarily few other individuals with whom one shares

10

not only a special community of thoughts, experiences, and beliefs but also distinctively personal

11

aspects of one’s life.” Id. (quoting Lee v. City of L.A., 250 F.3d 668, 685 (9th Cir. 2001) (second

12

internal quotation marks and citation omitted). The Supreme Court articulated this right over

13

thirty years ago in Roberts v. United States Jaycees, 468 U.S. 609 (1984), which found that

14

protecting intimate relations “from unwarranted state interference” was necessary to safeguard

15

“the ability independently to define one’s identity that is central to the concept of liberty.” Id. at

16
17
18
19
20
21
22
23
24
25
26
27
28

5

To the extent plaintiff relies on Trujillo v. Board of County Commissioners of the County
of Santa Fe, 768 F.2d 1186 (10th Cir. 1985) to argue that he has a viable First Amendment
expressive association claim (see Opposition at 6), this reliance is misplaced because Trujillo
examined the Fourteenth Amendment right to freedom of intimate association between siblings,
which the Ninth Circuit expressly rejected in Ward.
6

In contrast to plaintiff’s complaint (see ¶¶ 92–97), plaintiff’s opposition makes no
reference to freedom of expressive association under the Fourteenth Amendment (see Opposition
at 3–5). Thus, consistent with the caption page of the complaint, the Court interprets plaintiff’s
Third Cause of Action as an expressive association claim brought under the First Amendment. As
to that claim, plaintiff does not appear to oppose its dismissal, and his non-opposition is welladvised. The Supreme Court has recognized under the First Amendment “a right to associate for
the purpose of engaging in those activities protected by the First Amendment—speech, assembly,
petition for the redress of grievances, and the exercise of religion.” Roberts v.United States
Jaycees, 489 U.S. at 200, 618 (1984); see also IDK v. Clark Cty., 836 F.2d 1185, 1192 (9th Cir.
1988) (“The first amendment’s freedom of association protects groups whose activities are
explicitly stated in the amendment: speaking, worshipping, and petitioning the government.”)
Plaintiff has not attempted to state a proper claim under the First Amendment based on freedom of
expressive association, and from his opposition it is apparent he does not seek to do so. Moreover,
while the Court recognizes that “a single association may have intimate and expressive features,”
IDK, 836 F.2d at 1192, plaintiff’s claims for deprivation of association in this case appear limited
to intimate association (specifically, familial association). Accordingly, the County Defendants’
motion to dismiss plaintiff’s third cause of action is GRANTED.
9

United States District Court
Northern District of California

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 11
10 of 16
15

1

619. Shortly thereafter, the Supreme Court reconfirmed that “the First Amendment protects . . .

2

family relationships.” Board of Dirs. v. Rotary Club, 481 U.S. 537, 545 (1987). In light of this

3

and other case law, the Ninth Circuit in Keates acknowledged, “we have held that claims under

4

both the First and Fourteenth Amendment for unwarranted interference with the right to familial

5

association could survive a motion to dismiss.” Keates, 883 F.3d at 1236 (citing Lee, 250 F.3d at

6

686).

7

The County Defendants’ reliance on Ward to argue that plaintiff fails to plead a cognizable

8

claim for violation of association is thus misplaced as Ward did not address the First Amendment.

9

There, the Ninth Circuit held that siblings do not possess a liberty interest in their siblings’

10

companionship under the Fourteenth Amendment substantive due process clause. 967 F.2d at

11

284. The County Defendants have not shown that the principle enunciated in Ward limits the

12

“familial association” right previously articulated under the First Amendment. Indeed, a number

13

of California district courts have determined that it does not. See, e.g., Mann v. City of

14

Sacramento, No. 2:17-01201 WBS DB, 2017 U.S. Dist. LEXIS 152383, at *3 (E.D. Cal. Sept. 19,

15

2017) (in case brought by decedent’s siblings, court acknowledged Ward but declined to conclude

16

“as a matter of law that plaintiffs do not have standing to bring their § 1983 claim for deprivation

17

of their First Amendment right of association with decedent”); Kaur v. City of Lodi, No. 2:14-cv-

18

828-GEB-AC, 2014 WL 3889976, at *7 (E.D. Cal. Aug. 7, 2014) (declining to apply Ward to

19

preclude siblings from pursuing claims for violation of association under the First Amendment);

20

Graham v. Cty. of L.A., No. CV 10-05059 DDP (Ex), 2011 WL 3754749, at *2 (C.D. Cal. Aug.

21

25, 2011) (noting in light of Ward that fiancé of decedent did “not bring a 14th Amendment

22

companionship claim” and concluding that her relationship with decedent “was sufficiently

23

personal and intimate to merit the protection of the First Amendment”). Nor have the County

24

Defendants cited any controlling authority that contradicts the cases discussed in Keates, noted

25

above.

26

Plaintiff alleges:

27

Defendants were deliberately indifferent to plaintiff’s right of association. An
objective substantial risk of harm is exemplified by a five-old’s [sic] almost threeyear old sister requiring hospitalization for ingesting methamphetamine while in

28

10

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 12
11 of 16
15

1
2

United States District Court
Northern District of California

3

the exclusive care and custody of the same foster parent for the previous four days.
Defendants were subjectively aware of these facts from which an inference can be
drawn that a substantial risk of serious harm existed. Either they drew the
inference or would have been compelled to draw that inference.

4

(Complaint ¶¶ 89, 95.) Moreover, plaintiff alleges generally that rather than comply with various

5

mandates and duties to assess the emergency report that M.M. had ingested methamphetamine, or

6

investigate it, or take any immediate steps to prevent further harm, Maas and May did nothing to

7

prevent M.M.’s foreseeable death. (Id. ¶¶ 3, 5, 8, 9, 44, 46, 49, 51, 52, 54, 55, 60–63.) Assuming

8

the truth of these allegations and construing them in favor of plaintiff, the Court finds that plaintiff

9

has adequately alleged that individual County Defendants Maas’ and May’s alleged misconduct

10

constituted an “unwarranted interference” with plaintiff’s relationship with his sister. Keates, 883

11

F.3d at 1236; cf. Wittman v. Saenz, 108 F. App’x 548, at 549–50 (9th Cir. 2004) (citing Jaycees

12

and Board of Directors, court determined “First Amendment right of association extends to

13

individuals involved in an intimate relationship, such as fiancés” and, thus, district court erred in

14

dismissing complaint for failure to state a claim).7

15

Accordingly, the County Defendants’ reliance on Ward to argue that Maas and May are

16

entitled to qualified immunity because “siblings do not have a constitutionally protected liberty

17

interest in familial association” is unavailing. (Motion at 6; see also Reply at 5.) Further, the

18

alternative argument, that “[t]here was absolutely no authority or precedent in existence in 2015,

19

or even now . . . clearly establishing that right” under the First Amendment, see Motion at 7,

20

similarly fails. As noted, the Supreme Court articulated the right at issue in 1984. The Supreme

21

Court does not “require a case directly on point” for the law to be clearly established, but “existing

22

precedent must have placed the statutory or constitutional question beyond debate.” al-Kidd, 563

23

U.S. at 741. “[Q]ualified immunity operates ‘to ensure that before they are subjected to suit,

24
25
26
27
28

7

Of note, plaintiff describes Wittman as “affirming [the] right to associate with one’s
fiancé was clearly established.” (Opposition at 6.) However, the Ninth Circuit in Wittman held
the exact opposite: “Although, as noted above, Wittman has alleged a violation of his First
Amendment right to freely associate with his fiancé, that right was not clearly established such
that a reasonable board member would have known that his or her alleged acts and omissions
would violate Wittman’s right to freely associate with his fiancé.” Wittman, 108 F. App’x at 551
(emphasis supplied).
11

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 13
12 of 16
15

1

officers are on notice their conduct is unlawful.’” Hope v. Pelzer, 536 U.S. 730, 739 (2002)

2

(quoting Saucier v. Katz, 533 U.S. 194, 206 (2001)) (emphasis supplied).

United States District Court
Northern District of California

3

As early as 1984, the Supreme Court in Jacyees emphasized that the First Amendment

4

protects “[f]amily relationships, [which] by their nature, involve deep attachments and

5

commitments to the necessarily few other individuals with whom one shares not only a special

6

community of thoughts, experiences, and beliefs but also distinctively personal aspects of one’s

7

life.” 468 U.S. at 619–20 (emphasis supplied); see also Board of Dirs., 481 U.S. at 545. In light

8

of Jaycees, this Court finds that the relationship between siblings falls squarely within the

9

articulated right such that state officials should be found on notice of the same. See, e.g., Garcia-

10

Mejia v. Gilkey, No. 1:07-cv-00783-LJO-GSA (PC), 2009 WL 80411, at *3–4 (E.D. Cal. Jan. 13.

11

2009) (citing Board of Directors and Jaycees and concluding “[p]laintiff has a fundamental liberty

12

interest in his relationship with his brother”). This case does not present a remotely novel

13

proposition. Even if it did by virtue of the fact that it involves a sibling relationship, “officials can

14

still be on notice that their conduct violates established law even in novel factual circumstances.”

15

Pelzer, 536 U.S. at 741. Accordingly, the County Defendants’ assertion of the qualified immunity

16

defense fails.8

17

C.

18

The County Defendants also move to dismiss plaintiff’s claim for injunctive relief on the

19

Claim for Injunctive Relief

grounds that (i) plaintiff has not established that he is threatened with a real and immediate future

20
21
22
23
24
25
26
27
28

8

As the Ninth Circuit reiterated in Keates, the Court’s “denial of qualified immunity at
this stage of the proceedings does not mean that the case must go to trial.” 883 F.3d at 1240.
Once an evidentiary record has been developed through discovery, defendants will be free to move
for summary judgment based on qualified immunity. Id.
With respect to plaintiff’s municipal liability claims, the County Defendants merely argue
that the “fact” that “siblings simply do not have a protected liberty interest in familial association .
. . bars” such claims. (Motion at 5.) Because the Court has determined that plaintiff has a First
Amendment right to familial association, the Court DENIES the County Defendants’ motion to
dismiss as to plaintiff’s municipal liability claims on the basis asserted. However, the Court
DISMISSES WITH PREJUDICE plaintiff’s claims under Section 1983 for municipal liability to the
extent they are based on plaintiff’s alleged Fourteenth Amendment right to intimate association or
plaintiff’s alleged First Amendment right to expressive association. (See supra note 6.)
12

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 14
13 of 16
15

1

injury by the County; and (ii) plaintiff’s request for injunctive relief is impermissibly vague and

2

overbroad. The Court agrees that plaintiff’s claim for injunctive relief should be dismissed.

United States District Court
Northern District of California

3

To have standing for injunctive relief under Section 1983, a plaintiff must allege that he is

4

likely to suffer future injury from the alleged misconduct by the defendants. See City of L.A. v.

5

Lyons, 461 U.S. 95, 105, 110 (1983). The reasonableness of a plaintiff’s apprehension is

6

dependent upon the likelihood of a recurrence of the allegedly unlawful conduct. Id. at 107 n.8.

7

Moreover, while “[a] district court has considerable discretion in fashioning suitable relief and

8

defining the terms of an injunction,” Lamb-Weston, Inc. v. McCain Foods, Ltd., 941 F.2d 970, 974

9

(9th Cir. 1991), “[t]here are limitations on this discretion; an injunction must be narrowly tailored

10

to give only the relief to which plaintiffs are entitled,” Orantes-Hernandez v. Thornburgh, 919

11

F.2d 549, 558 (9th Cir. 1990). “Injunctive relief . . . must be tailored to remedy the specific harm

12

alleged. An overbroad injunction is an abuse of discretion.” Stormans, Inc. v. Selecky, 586 F.3d

13

1109, 1140 (9th Cir. 2009) (internal quotation marks and citations omitted).

14

Here, plaintiff seeks “injunctive or declaratory relief as necessary to ensure ALAMEDA

15

COUNTY remedy [sic] the unlawful practices described in this complaint.” (Complaint ¶ 119

16

(emphasis in original).) Plaintiff further seeks “injunctive or declaratory relief requiring

17

ALAMEDA COUNTY to develop, implement, and, enforce systems to effectively coordinate and

18

ensure a properly trained social worker timely respond [sic] to all referrals/reports of abuse or

19

neglect against children in ALAMEDA COUNTY’s custody.” (Id. ¶ 120 (emphasis in original).)

20

However, the complaint is inconsistent as to whether plaintiff remains in the foster care system

21

such that he “will again be wronged in a similar way.” Lyons, 461 U.S. at 111.9 Thus, plaintiff

22

has failed to allege facts to show he has standing to seek injunctive relief. Moreover, plaintiff’s

23

claim is overbroad as this is not a class action, and plaintiff has not alleged that he has any other

24
25
26
27
28

9

Compare Complaint ¶ 76 (“Plaintiff, through his Guardian ad Litem, has retained private
counsel to represent her adoptive son [J.P.] in this matter” (emphasis supplied)) with Complaint
¶ 6 (“At all relevant times, [J.P] was and is a dependent child under the jurisdiction of the
Alameda County Juvenile Court and is placed in a foster care home” (emphasis supplied)) and
Complaint ¶ 116 (“[J.P.] is a dependent foster child in the legal custody of ALAMEDA COUNTY
who resides in a foster home” (emphasis supplied)).
13

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 15
14 of 16
15

1

siblings in the foster care system such that any unconstitutional policies or practices could cause

2

the same or similar injury in the future. Accordingly, the Court GRANTS WITH LEAVE TO AMEND

3

the County Defendants’ motion to dismiss plaintiff’s seventh cause of action for injunctive relief.

4

IV.

For the reasons set forth above, the Court GRANTS IN PART AND DENIES IN PART the

5
6

County Defendants’ motion to dismiss as follows:
The Court DENIES the County Defendants’ motion as to: (i) plaintiff’s claim under Section

7

United States District Court
Northern District of California

CONCLUSION

8

1983 for violation of his Fourteenth Amendment rights to be free from state-created danger and to

9

minimally adequate care; (ii) plaintiff’s claim under Section 1983 for violation of his First

10

Amendment right to familial association; and (iii) plaintiff’s corresponding municipal liability

11

claims under Section 1983.
The Court GRANTS WITHOUT LEAVE TO AMEND the County Defendants’ motion as to:

12
13

(i) plaintiff’s claim under Section 1983 for violation of his Fourteenth Amendment right to

14

intimate association; and (ii) plaintiff’s claim under Section 1983 for violation of his First

15

Amendment right to expressive association.10 Accordingly, the Court DISMISSES WITH

16

PREJUDICE plaintiff’s claims under Section 1983 for municipal liability to the extent they are

17

based on violation of these two alleged rights.11
The Court GRANTS WITH LEAVE TO AMEND the County Defendants’ motion as to

18
19

plaintiff’s seventh cause of action for injunctive relief.
Plaintiff must amend his complaint by no later than May 15, 2018.12 Defendants must

20
21

respond within 21 days of filing.

22

\\

23

\\

24
25

10

See supra note 6.

26

11

See supra note 8.

27

12

28

The parties are reminded that all future filings must comply with Federal Rule of Civil
Procedure 5.2(a).
14

Case 4:17-cv-05679-YGR Document 57
52 Filed 05/24/18
04/24/18 Page 16
15 of 16
15

1

This Order terminates Docket Number 21.

2

IT IS SO ORDERED.

3
4

Dated: April 24, 2018
YVONNE GONZALEZ ROGERS
UNITED STATES DISTRICT COURT JUDGE

5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
15

